<html>
<title> - COMBATTING TRANSNATIONAL CRIMINAL THREATS IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  COMBATTING TRANSNATIONAL CRIMINAL THREATS IN THE WESTERN HEMISPHERE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2018

                               __________

                           Serial No. 115-154

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-176PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cea9bea18eadbbbdbaa6aba2bee0ada1a3e0">[email&#160;protected]</a>                      
                      
                      

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere


                    PAUL COOK, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Richard Glenn, Acting Deputy Assistant Secretary, Bureau of 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................     8
Ms. Jennifer Fowler, Deputy Assistant Secretary, Office of 
  Terrorist Financing and Financial Crimes, U.S. Department of 
  Treasury.......................................................    18
Rear Admiral Brian Hendrickson, USN, Director, Network Engagement 
  Team, U.S. Southern Command....................................    30
Mr. Raymond Villanueva, Assistant Director for International 
  Operations, Homeland Security Investigations, U.S. Department 
  of Homeland Security...........................................    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Paul Cook, a Representative in Congress from the 
  State of California, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     4
Mr. Richard Glenn: Prepared statement............................    11
Ms. Jennifer Fowler: Prepared statement..........................    21
Rear Admiral Brian Hendrickson, USN: Statement of Admiral Kurt W. 
  Tidd, Commander, United States Southern Command................    32
Mr. Raymond Villanueva: Prepared statement.......................    66

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Paul Cook: Statement of Zoe Reiter, Acting 
  Representative to the U.S. and Senior Project Leader, 
  Transparency International.....................................    92
Questions submitted for the record...............................   104

 
  COMBATTING TRANSNATIONAL CRIMINAL THREATS IN THE WESTERN HEMISPHERE

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:37 p.m., in 
room 2172, Rayburn House Office Building, Hon. Paul Cook 
(chairman of the subcommittee) presiding.
    Mr. Cook. A quorum being present, the subcommittee will 
come to order.
    I would like to now recognize myself for an opening 
statement.
    First of all, I want to apologize to our guests and 
speakers here today. Everything has been a little bit backed 
up, and, you know, Congress is Congress. So I hope we get some 
more members here, but there are multiple committees going. But 
I am delighted that you're here.
    Our country is facing the worst opioid epidemic in our 
history. According to the Centers for Disease Control and 
Prevention, over 62,632 Americans died of drug overdoses last 
year, which is almost 22 percent higher than in 2016.
    Transnational criminal organizations operating in the 
Western Hemisphere countries bear some responsibility for these 
deaths given their role in cultivating, producing, and 
transporting many of the drugs that kill Americans, such as 
heroin, cocaine, methamphetamine, marijuana, and fentanyl.
    According to the U.S. Council on Transnational Organized 
Crime, we have at least 96 gangs operating in the United States 
that are associated with transnational organized crime. Today's 
criminal organizations are a new kind of threat. They operate 
like international corporations and use legitimate franchise 
structures that make combatting them more difficult.
    In many instances, they benefit from the protection of 
corrupt governments in countries where they operate. These 
criminal groups include drug cartels in Mexico; MS-13, 18th 
Street gangs in Central America; armed guerilla groups like the 
ELN and BACRIM in Colombia and Hezbollah in South America.
    While these groups engage in drug trafficking, their 
activities are not limited to drugs. They have also found ways 
to make substantial profits from human trafficking, the 
trafficking of weapons and wildlife, illegal logging, gold 
mining, oil taps, extortion and robbery, bulk cash smuggling, 
identity and benefit fraud, and money laundering. 
Significantly, in both Colombia and Peru, two of the top 
cocaine producing countries in the world, illegal gold mining 
brings in more revenue to criminal organizations than drugs.
    For the past 4 years, it has been the U.S. policy to curb 
the flow of illicit drugs from Latin America by dismantling the 
criminal groups that control these activities, yet I am not 
sure we are succeeding. Cocaine production is at an all-time 
high in Colombia, and these criminal groups have increased 
their profits from expanding into other illicit activities.
    The increasing numbers of these criminal groups operating 
in Latin America and the Caribbean and the havoc they produce 
for the United States and for our neighbors require that we 
take a critical look at our policies and tools to continue 
efforts that work and halt efforts that don't show results.
    The United States has strong regional partnerships to 
address these issues, and we can further deepen our efforts. We 
support counter-narcotics and security efforts, share 
information, combat money laundering, and support anti-
corruption efforts and stronger judicial systems.
    Mexico and the United States cooperate extensively 
throughout the Merida Initiative to counter the security 
threats from drug cartels.
    In Central America, the United States, Guatemala, El 
Salvador, and Honduras have worked together through the U.S. 
strategy for engagement with Central America in support of the 
country's Alliance for Prosperity Plan, known as A4P, and 
through the Central America Regional Security Initiative in the 
Caribbean.
    We are partnered to address criminal threats through the 
Caribbean Basin Security Initiative.
    The United States also employs border security task forces 
to strengthen regional border security capacity, military and 
law enforcement tools to monitor and interdict contraband 
headed to the United States, and various sanctions regimes such 
as those targeting transnational criminal organizations, drug 
kingpins, and terrorists.
    Yet, with all these efforts, we have seen that the arrests 
of drug kingpins and the fragmentation of the large criminal 
organizations have led to the emergence of newer, smaller 
criminal groups in the region. Illicit activities have 
continued and even increased.
    And it's not just gangs and criminal groups who are engaged 
in illicit activities in the region. Hezbollah, particularly 
entrenched in the tri-border area, nets approximately $20 
million annually from drug trafficking, pirated goods, human 
smuggling, counterfeiting, and money laundering.
    This begs the question, just how effective are all these 
U.S. lines of effort in addressing transnational crime in the 
Americas?
    These criminal organizations terrorize local populations 
with violence where they operate. They use corrupt government 
officials, and they undermine democratic institutions to make a 
profit. And their illicit activities drive a parallel black 
market economy that impairs countries' economic growth.
    In February 2017, President Trump issued Executive Order 
13773 to prioritize addressing transnational criminal 
activities. Subsequently, the United States Council on 
Transnational Organized Crime found that over 60 Federal 
organizations are working on countering transnational crime but 
no U.S. agency coordinates all these efforts.
    With this setup, we run the risk of uncoordinated U.S. 
efforts and potential laws and policies that have not kept up 
with the ever-evolving criminal groups. Likewise, how can the 
U.S. coordinate with regional partners effectively if we, 
ourselves, lack a unified approach to the challenges?
    I believe all of your agencies are doing critically 
important work to advance U.S. national interests, but in this 
congressional oversight hearing, I want to examine if there are 
areas for improvement. Do your agencies possess the authorities 
and resources that you need to disrupt and dismantle 
transnational criminal organizations in the Western Hemisphere? 
Where are the gaps in our current approach?
    In conclusion, I want to ensure that the U.S. law, 
policies, and programs are keeping up with the changing 
technology, shifting regional dynamics, and ever-adapting 
criminal organizations so we are the most effective in our 
approach and in our cooperation with our regional partners.
    I look forward to hearing from our witnesses on these 
matters.
    And, with that, I want to turn to my good friend, the 
ranking member, for his opening remarks.
    [The prepared statement of Mr. Cook follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sires. Good afternoon, everyone.
    And thank you to our witnesses for appearing here today.
    Thank you, Mr. Chairman, for hosting this important and 
timely hearing.
    We are here to discuss the threat of transnational criminal 
organizations in the hemisphere and hear from the 
administration on how they are assessing and combatting these 
criminal threats.
    Transnational criminal organizations are one of the largest 
challenges in bringing security, peace, and prosperity to the 
Western Hemisphere. They represent a real and ongoing threat to 
both domestic and regional security by engaging in a diverse 
range of nefarious activities, such as extortion, robbery, 
illegal mining, and the international trafficking of people, 
drugs, and other commodities.
    Furthermore, the continued success and profitability of 
these illicit ventures creates a flourishing prevalence of 
violent crimes in these areas as groups compete for control of 
territory and revenue streams. These criminal organizations 
present one of the greatest risks to stability in the Western 
Hemisphere and should undoubtedly be a top priority for U.S. 
foreign policy.
    Combatting these criminal organizations requires strong 
cooperation with our allies that focuses not just on security 
but also economic development and opportunity. We must counter 
the root causes of instability that leave young people 
vulnerable to joining transnational criminal organizations. 
These root causes create the conditions that allow illicit 
networks to flourish.
    Unfortunately, despite President Trump's rhetoric on drug 
trafficking and being tough on crime, he continues to make 
missteps that embolden these organizations. By proposing 
draconian cuts to the foreign assistance in which we choke off 
our Embassies and civil society from doing necessary work on 
the ground to keep communities safe, the President makes it 
more challenging for the United States to foster alliances and 
build trust both with our neighboring governments and the 
people living in them needed to combat these threats.
    I am eager to hear from the administration on how the 
President's actions impact the United States' ability to combat 
transnational criminal threats and what more our agencies and 
allies need to help keep not just Americans but people living 
throughout the hemisphere safe.
    Thank you. I yield back.
    Mr. Cook. Thank you very much.
    Before I recognize you to provide your testimony, I am 
going to explain the lighting system in front of you.
    Oh, you snuck in on me.
    I will forgo the lighting instructions and recognize Mrs. 
Torres from California.
    Mrs. Torres. Thank you, Chairman Cook and Ranking Member 
Sires, for holding this very important hearing. And thank you 
for allowing me the time for an opening statement.
    Thank you so much to our witnesses who have taken the time 
to be with us today.
    Transnational organized crime is a threat in stability, not 
only to our security here in the U.S. but also to our allies 
and throughout the hemisphere. It has taken a toll on the 
people all throughout the hemisphere, from the coca fields of 
Colombia to the streets in my hometown of Pomona, California. 
This is an issue that we can't avoid, but it is not an easy 
issue to deal with either.
    The reality is that our lax gun laws are arming the cartels 
in Mexico. Criminals from across the region are using our 
financial system to launder their ill-gotten funds. In too many 
countries in this region, from Venezuela to Guatemala and 
Honduras, the bad guys aren't just in the streets; too often, 
the bad guys are also in their legislatures, in their police 
forces, and even in their militaries.
    So I look forward to your testimony today and to discussing 
and finding ways that we can truly develop a comprehensive 
response to address this very urgent problem in our 
communities.
    And I yield back.
    Mr. Cook. Thank you, Mrs. Torres.
    Before I recognize you to provide your testimony, I am 
going to explain the lighting system in front of you. This is 
so I remember all these lights myself.
    You will each have 5 minutes to present your oral 
statement. When you begin, the light will turn green. When you 
have 1 minute left, the light will turn yellow. When your time 
has expired, the light will turn red, unless the lights are 
out. I ask that you conclude your testimony once the red light 
comes on. You might hear, because I am such a nice guy, a 
gentle rap, rap, rap, like the raven on the window ledge.
    And after our witnesses testify, members will have 5 
minutes to ask questions. We might have multiple rounds here 
and could extend that, because this is a great committee. I 
feel bad. I know we have other ones going on, but some of the 
things that we want to cover today are really, really 
important.
    So our first witness to testify will be Mr. Richard Glenn, 
the Acting Deputy Assistant Secretary in the Bureau of 
International Narcotics and Law Enforcement Affairs at the U.S. 
Department of State. He previously served as the office 
director for Western Hemisphere programs. Mr. Glenn has served 
as a Foreign Service officer in Ecuador, South Africa, Czech 
Republic, Argentina, and Mexico.
    So I am going to start off right now, and then I will 
introduce our second witness. And we are delighted to have you 
here. So, Mr. Glenn.

    STATEMENT OF MR. RICHARD GLENN, ACTING DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Glenn. Chairman Cook, Ranking Member Sires, 
Congresswoman Torres, members of the subcommittee, thank you 
for the opportunity to appear before you today to discuss 
transnational crime in the Western Hemisphere.
    Some of the greatest threats to U.S. national security 
today are ones that emanate from this hemisphere. And as you 
have already identified, the opioid and heroin crisis, gang 
violence, and the illegal smuggling of the drugs, people, and 
other illicit products across our borders threaten U.S. 
security and that of our neighbors throughout Latin America and 
the Caribbean.
    The Department of State's Bureau of International Narcotics 
and Law Enforcement Affairs, INL, the bureau which I represent, 
leads our department's efforts to combat crime overseas. And 
since INL got its start nearly 40 years ago, criminal activity 
today is more complex, more diversified, and more difficult to 
understand and attack than ever before. Criminal groups are 
nimble, and they thrive on weak institutions. This fluidity 
makes successfully attacking them difficult.
    From years of experience, we have learned that partnership 
and comprehensive solutions are key. Through bilateral and 
regional foreign assistance programs in Mexico, Central 
America, the Caribbean, and South America, INL provides 
targeted law enforcement and counter-narcotics assistance, 
supporting efforts to increase the capacity of criminal justice 
sectors to prosecute and convict criminals, and advocating for 
extensive anticorruption efforts.
    In support of the President's executive order on 
transnational organized crime, we are working closely with our 
U.S. interagency partners to deliver assistance and apply tools 
such as financial sanctions and visa sanctions to not only 
bring criminals to justice but to also deter criminal behavior.
    Our efforts are demonstrating results. Through coordinated 
regional law enforcement operations in Central America, 
supported by INL and our DOJ partners, thousands of gang 
members have been taken off the streets. Our model police 
precincts and place-based strategy approach to develop 
strategically balanced and integrated criminal justice sector 
projects in high-crime communities throughout Central America 
has led to decreased homicide rates in all three countries. In 
Colombia and Mexico, our assistance has made possible targeted 
law enforcement operations against key, high-value-target 
traffickers.
    This is promising news, but we have a lot of work ahead of 
us. We are in this for the long game.
    Combatting transnational crime requires coordination that 
is often difficult enough to achieve among law enforcement 
entities within one country, let alone law enforcement entities 
among multiple countries. Trust is essential.
    And INL, together with the U.S. interagency, is working to 
establish and enhance relationships among counterparts in the 
region, including three regional trainings to be more effective 
and efficient at sharing information and best practices.
    In the Northern Triangle of Central America, INL supports 
the development of the regional criminal gang intelligence 
platform to enable real-time information-sharing for 
transnational anti-gang units to track gang-related activities, 
migration, human smuggling, and illicit trafficking.
    In Colombia, INL partners with the Colombia National Police 
to deploy its officers to key transit zone countries to build 
counter-narcotics and law enforcement capacity as well as 
relationships and opportunities to share information.
    Advancing further coordination with and between our 
partners throughout the hemisphere is essential to successfully 
dismantling transnational crime, and INL is consistently 
looking for ways to leverage our partnerships.
    A secure hemisphere where citizens are protected under the 
rule of law and where criminal groups do not have the ability 
to operate depends upon having strong and willing partners who 
believe in the importance of institutions accountable to the 
people and stand ready to make difficult and often unpopular 
decisions that demonstrate a sustained commitment to fight 
impunity.
    We see this in Honduras, where the police have undergone an 
extensive and at times very unpopular purge that has led to the 
termination of over 3,000 law enforcement officers. This has 
been challenging. It has been time-consuming and messy, with a 
restructuring of the police, but they are moving forward and 
getting better. This example underscores the importance of 
political will in effecting change. Yet much more needs to be 
done.
    Chairman Cook, Ranking Member Sires, the threats posed by 
transnational crime in this hemisphere are immense. We have 
been engaged in the hemisphere for a very long time, and we are 
far from declaring success. A sustained commitment to our 
partners in the region is critical to protecting our homeland, 
and INL is committed to this effort.
    Again, thank you for the opportunity to appear before you 
today, and I look forward to your questions later on.
    [The prepared statement of Mr. Glenn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you very much.
    Our second witness to testify is Ms. Jennifer Fowler, the 
Deputy Assistant Secretary in the Office of Terrorist Financing 
and Financial Crimes at the U.S. Department of Treasury. She 
also serves as the vice president of the Financial Action Task 
Force, FATF.
    Prior to this, Ms. Fowler served as the Treasury's Chief of 
Staff and Senior Advisor to the Under Secretary for Terrorism 
and Financial Intelligence, as Assistant Director in the Office 
of Terrorist Financing and Financial Crimes, and in the Office 
of Foreign Assets Control.
    She was also a Peace Corps volunteer and journalist, and we 
are delighted to have her here.
    Ms. Fowler.

 STATEMENT OF MS. JENNIFER FOWLER, DEPUTY ASSISTANT SECRETARY, 
   OFFICE OF TERRORIST FINANCING AND FINANCIAL CRIMES, U.S. 
                     DEPARTMENT OF TREASURY

    Ms. Fowler. Chairman Cook, Ranking Member Sires, and 
distinguished members of the subcommittee, I am honored to 
discuss Treasury's efforts to counter the illicit financial 
activities of transnational criminal organizations in the 
Western Hemisphere. It is the mission of Treasury's Office of 
Terrorism and Financial Intelligence to disrupt these networks 
in coordination with other U.S. Government agencies and 
international partners.
    Transnational criminal organizations pose a threat to the 
prosperity and security of the United States and our regional 
allies. Our most recent National Money Laundering Risk 
Assessment, published in 2015, estimates that around $64 
billion is generated annually from U.S. sale of drugs, with 
Mexico being the primary supplier for some drugs and a transit 
zone for others and Colombia the leading provider of cocaine in 
United States.
    Based on our engagement with law enforcement, we believe 
this figure has increased in recent years. Drug trafficking 
organizations launder and place drug proceeds into the United 
States and regional financial systems through the movement of 
bulk cash, the structuring of deposits, and trade-based money 
laundering schemes.
    Together with our Latin American partners, we are 
strengthening anti-money-laundering and countering the 
financing of terrorism regimes across the region. In Mexico, 
Treasury co-leads a working group to improve information-
sharing between our governments and private sectors on illicit 
finance and contributes to operational matters by exchanging 
lead information on specific targets.
    In addition, Treasury chairs a dialogue with U.S. and 
Central American authorities and the private sector that is 
working to improve our understanding of the threat posed to 
regional financial systems by gangs, including MS-13.
    Colombia is also a key partner. For more than 15 years, we 
have worked with Colombian authorities against the assets of 
drug cartels and guerilla and paramilitary organizations, 
targeting more than 2,000 individuals and companies related to 
these organizations.
    Treasury's engagement with regional financial authorities 
has been a cornerstone of the administration's strategy on 
Venezuela. Secretary Mnuchin has hosted three meetings of 
finance ministers to discuss the crisis in Venezuela and to 
strengthen information-sharing on corrupt Venezuelan officials 
and their support networks.
    In response to the threat posed by terrorist financing in 
the tri-border area, we are developing a regional illicit 
finance risk assessment with authorities in Argentina, 
Paraguay, and Brazil, which will improve our ability to develop 
appropriate measures to address those risks in coordination 
with those regional authorities.
    Our cooperation to tackle transnational criminal 
organizations outside of our borders helps to reduce the threat 
they pose to our own financial system. Nonetheless, the size 
and centrality of our financial system leaves us exposed to 
money laundering. Treasury works to ensure that the United 
States maintains a strong anti-money-laundering and countering-
the-financing-of-terrorism regime.
    In 2016, the Financial Action Task Force reviewed our 
regime. FATF gave the United States the highest possible 
ratings for asset forfeiture and noted our effectiveness in 
prosecution and the implementation of targeted financial 
sanctions.
    Although we faired well, we are continually working to 
strengthen our anti-money-laundering and countering-the-
financing-of-terrorism regime. At present, Treasury is 
preparing a national counter-illicit-finance strategy in 
response to the Countering America's Adversaries Through 
Sanctions Act. This strategy updates our 2015 National Money 
Laundering and Terrorist Financing Risk Assessment and will 
include our first-ever proliferation financing assessment.
    In our efforts to strengthen our own system, we will focus 
on the misuse of legal entities in real estate. Treasury's 
Customer Due Diligence Rule took effect on May 11, requiring 
financial institutions to identify and verify the beneficial 
owners of companies opening new accounts and bolstering the 
ability of law enforcement to investigate the misuse of legal 
entities.
    We are also evaluating illicit finance typologies 
associated with property transactions. And Treasury's Financial 
Crimes Enforcement Network, FinCEN, has released advisories on 
the abuse of the real estate sector.
    In addition to these efforts, Treasury uses its unique 
authorities, including sanctions authorities and authorities 
under the USA PATRIOT Act, to target individuals and support 
networks responsible for financial crimes. For example, OFAC 
uses the Kingpin Act and TCO authority to target dangerous 
criminal organizations.
    In 2012, OFAC sanctioned MS-13 as a significant TCO under 
Executive Order 13581. Since January 2017, OFAC's Kingpin 
actions have designated a total of 174 individuals and 
entities. During that time, OFAC also designated more than 50 
Venezuelan Government officials and their associates, including 
last Friday's designation of Venezuelan politician Diosdado 
Cabello. As a result of these designations, hundreds of 
millions in assets have been blocked.
    Treasury has also issued targeted economic measures, 
including a new executive order signed by the President this 
week restricting the Maduro regime's ability to liquidate state 
assets at fire sale prices at the expense of the Venezuelan 
people.
    TCOs represent a threat to U.S. interests at home and 
throughout the Western Hemisphere, and we will continue to work 
to protect the U.S. and global financial systems against TCO 
abuse.
    I look forward to your questions. Thank you for asking me 
to testify today.
    [The prepared statement of Ms. Fowler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you very much.
    Next will be Rear Admiral Brian Hendrickson, Director of 
the Network Engagement Team at USSOUTHCOM, Southern Command.
    Rear Admiral Hendrickson has served in numerous naval 
special warfare assignments and has served as Assistant to the 
Vice Commander of U.S. Special Operations Command, Military 
Deputy at the Defense Innovation Unit Experimental, and Deputy 
Commander of the Naval Special Warfare Command.
    Admiral? Thank you.

  STATEMENT OF REAR ADMIRAL BRIAN HENDRICKSON, USN, DIRECTOR, 
         NETWORK ENGAGEMENT TEAM, U.S. SOUTHERN COMMAND

    Admiral Hendrickson. Chairman Cook, Ranking Member Sires, 
members of the committee, thank you for the opportunity to 
appear before you today.
    For my written statement, I have submitted the SOUTHCOM 
Commander's annual posture statement to the Senate Armed 
Services Committee, which covers a broad range of both 
challenges and opportunities in the Western Hemisphere.
    First, I will focus on the challenges.
    Every day, our southern approaches are under assault by 
criminal networks whose smuggling operations reach across Latin 
America and the Caribbean and deep into the United States. 
These groups exploit every land, sea, and air border to traffic 
drugs, people, weapons, and other illicit goods throughout the 
Western Hemisphere and beyond.
    Their corrosive activities pose a threat to the stability 
of our partners and to our national security. It is no 
coincidence that some of the most violent places on this planet 
are located right here in our hemisphere. They are home to the 
criminal networks like MS-13, the Sinaloa Cartel, and others. 
While our partners bear the brunt of this violence, these 
networks and many others have a significant footprint in the 
United States.
    The region is also home to networks that specialize in 
smuggling illegal immigrants from places like Afghanistan, 
Pakistan, Yemen, Syria, and Iraq--all places where terrorist 
organizations like Al Shabaab, ISIS, al-Qaeda, and their 
affiliates operate.
    Now, migrant smuggling is not uncommon. What makes these 
networks different is the type of people who enlist their 
services to attempt to enter the U.S. homeland undetected. Some 
of these people have ties to terrorism, and some have 
intentions to conduct attacks in the homeland. It is unclear if 
these attack plans are at the explicit direction of terrorist 
organizations or self-inspired, but that intent and the 
regional vulnerabilities these networks exploit is deeply 
concerning.
    Stopping these threat networks is truly a team network. It 
involves the FBI, HSI, the Departments of Defense and State, 
and partners like Panama, Costa Rica, Brazil, Colombia, and 
many others.
    In addition to our collective U.S. Governmental efforts to 
target criminal networks, U.S. Southern Command, INL, DHS, 
Treasury, and others also build the capacity of vetted police 
and military units throughout the region. We provide real-world 
training in countering illicit financial flows, the employment 
of biometrics, intelligence fusion, open-source analysis, 
border security, and maritime interdiction. The end result is 
capable partners who can do more with us and with each other in 
a layered defense to stop threats against our homeland and our 
shared home.
    I will close with this observation. You may be wondering 
why a guy in a military uniform is talking about something that 
seems to be primarily a law enforcement mission. My colleagues 
here at the table obviously all play a leading role in this 
effort, but DOD supports them by providing unique capabilities 
like intelligence fusion and training.
    Our effort is multiagency because the problem is 
multidimensional. In other words, it takes a network to defeat 
a network. This is a governance problem, a public health and 
safety problem, and, above all, a national security problem, 
because, as our awareness and understanding grows, we learn 
that more and more of these networks are being leveraged by 
those who seek to do us harm and those who seek to do our 
partners harm.
    I look forward to discussing these and other issues with 
you and my colleagues. Thank you.
    [The statement of Admiral Tidd, submitted by Admiral 
Hendrickson, follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Cook. Thank you, Admiral.
    By the way, I was at the Army's dive school, scuba school 
down there at Key West. They were saying it is better than the 
Navy's. I just thought I would throw that out there. And they 
also made some comment about some football game last year. 
Being a Marine, I had to stay neutral on that. I didn't get 
involved. But do you want to comment on that at all?
    Admiral Hendrickson. Not for the record, Chairman.
    Mr. Cook. Thank you very much. Sorry to stir things up 
here.
    Our last witness to testify will be Mr. Raymond Villanueva, 
the--did I get that right?
    Mr. Villanueva. Yes, sir.
    Mr. Cook [continuing]. The Assistant Director for 
International Operations of Homeland Security Investigations at 
the U.S. Department of Homeland Security.
    Since joining HSI, he has served in numerous leadership 
positions. Prior to this, the gentleman served as a police 
officer in Puerto Rico.
    So you are now recognized, and thank you for being with us.

  STATEMENT OF MR. RAYMOND VILLANUEVA, ASSISTANT DIRECTOR FOR 
  INTERNATIONAL OPERATIONS, HOMELAND SECURITY INVESTIGATIONS, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Villanueva. Chairman Cook, Ranking Member Sires, and 
distinguished members, thank you for the opportunity to appear 
before you today to discuss U.S. Immigration and Customs 
Enforcement Homeland Security Investigations' efforts to 
investigate, disrupt, and dismantle transnational criminal 
organizations, to include violent gangs, in the Western 
Hemisphere.
    During the last two decades, transnational organized crime 
has expanded dramatically, which poses a significant threat to 
national security. HSI takes this threat seriously and targets 
transnational criminal organizations at every critical location 
in the cycle by utilizing a layered approach--that is, 
internationally by pushing our borders out in cooperation with 
foreign counterparts; our Nation's physical border, in 
coordination with U.S. Customs and Border Protection, where the 
transportation cells attempt to exploit America's legitimate 
infrastructure; and in cities throughout the United States 
where criminal organizations earn substantial profits after 
illegal activities.
    As of May 2018, HSI maintains more than 130 open 
investigations targeting MS-13 members and their criminal 
organizations globally by working with our law enforcement 
partners, including those in Guatemala, Honduras, and El 
Salvador. Without information-sharing and partnering with our 
Federal, State, local, and foreign law enforcement partners, 
HSI would not be nearly as successful at battling MS-13 and 
other violent gangs.
    In fiscal year 2018, HSI, with the support of the 
Department of State's International Narcotics and Law 
Enforcement, initiated Operation Gatehouse, which addresses the 
MS-13 threat in partnership with police officers from El 
Salvador's civil national police embedded with our gang task 
forces in the United States.
    The Salvadoran officers work alongside HSI special agents 
in an advisory role, sharing their expertise on MS-13 and 
assisting in identifying gang membership and leadership in El 
Salvador that might be directing illegal activity in the United 
States. We hope to expand this program to additional task 
forces throughout the United States in fiscal year 2019.
    While combatting TCOs domestically, thus protecting 
Americans from harm, violence, and TCO exploitation, HSI 
continues to push the borders out by capitalizing on our 
international partnerships with foreign law enforcement 
officials. This is accomplished by our attache network located 
in 67 offices around the world.
    Our attaches leverage several key international 
partnerships, to include the Transnational Criminal 
Investigative Units and Operation Citadel, to identify 
potential bad actors along the illicit pathways, while 
exploiting available information, with the goal of identifying, 
disrupting, and dismantling unknown gang cliques posing a 
threat to the United States.
    HSI also leverages its information-sharing capabilities 
using several key initiatives, some of which I would like to 
highlight briefly: The Visa Security Program, in which HSI 
partners with CBP and the Department of State Consular Affairs 
by deploying trained special agents to high-risk visa activity 
posts to identify and investigate potential terrorists and 
criminal threats before they reach the United States.
    The Trade Transparency Units are designed to aggressively 
target criminal organizations and individuals involved in 
trade-based money laundering but also those preparing 
contraband smuggling and customs fraud. All TTU foreign 
partners recognize the value of information-sharing, which 
permits the comparison of international trade data to target 
illicit activity.
    And last but not least, the Biometric Identification 
Transnational Migration Alert Program, also known as BITMAP, 
which helps provide infrastructure and capability for host 
governments to collect biometric data on individuals they 
encounter. This information is shared with U.S. law enforcement 
and the intelligence community. We, including CBP National 
Targeting Center, share relevant law enforcement information 
with these countries. Through this process, HSI, CBP, and DOD 
are able to track movement toward the United States, take joint 
action with partner nations along the route, and deter human 
smuggling through South and Central America. BITMAP today is 
deployed to 15 countries.
    These operational endeavors could not have been successful 
without the cooperation of our Federal, State, local, and 
foreign government law enforcement partners. HSI will continue 
to give high priority and devote sufficient resources to 
disrupting and dismantling TCOs.
    Thank you again for the opportunity to appear before you 
today and for your continued support of ICE's law enforcement 
mission, and I am looking forward to answering your questions.
    [The prepared statement of Mr. Villanueva follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you, sir.
    Now I will yield myself 5 minutes to ask questions.
    And I want to make a comment. We had the Secretary of State 
here this morning. It was a long hearing, and there were a lot 
of issues that were covered. I, myself, just to let you know, I 
made the comment that I knew he had a lot on his plate with 
what was going on and everything. I said that I had been 
getting the feeling, talking to many of our colleagues and 
friends in the Western Hemisphere, in Latin America, that in 
many ways that region had been forgotten. And all these things 
have been on the news and everything else, and maybe they have 
been overshadowed, with the meeting in North Korea and ISIS and 
Afghanistan, the Ukraine. I can go on and on and on.
    The point I tried to make is that there are a lot of 
countries there--I think I said there were going to be 13 
elections this year. There are a lot of things going on, and 
you have two countries that have been meddling big-time. One 
was China, which has thrown a lot of money around, and the 
other is Iran, as well as the drug cartels.
    And I think there is--at least when we were just down there 
for our conference, you remember the collective takeaway--and 
correct me if I am wrong when you speak--they were, ``Hey, 
United States, you better wake up to what your friends there 
are talking about.'' And it is like, yeah, we know things are 
going on, but we have our own problems here, and they are 
getting worse and worse and worse.
    So what you are saying about this collective effort, I 
couldn't agree with you more. But right now I think they have a 
point, a lot of these countries. And a lot of it is that, 
whether it is true or not, they have the attitude that the 
United States has forgotten them to a certain extent, that 
something is more important.
    So basically my question to the panel is, can you comment 
on that and whether you have any assured solutions to say that 
and--it is a very difficult problem. Maybe I am wrong.
    Yes, sir.
    Mr. Glenn. Excellent question. I think that there are a few 
examples of, I think, very important, high-level engagement 
that has given both signals within the administration and, I 
would hope, outward signals that there definitely is a focus on 
South America, Central America, and Mexico and the Caribbean as 
well.
    The Vice President, last year, in 2017, in June, led the 
U.S. delegation in Miami of a conference between the Central 
American countries, focused mostly on the Northern Triangle, 
with Colombia and Mexico present as well. I don't know how 
there could be a clearer signal given than the Vice President 
being present and declaring a continued focus and emphasis on 
Latin America, specifically, in that instance, on the Northern 
Triangle of Central America.
    The funding levels have supported that emphasis. I think 
also the executive order that was issued early on in the 
administration also indicates, at least to us here at the 
table--gives us a clear signal of what we are supposed to be 
doing and what we are supposed to be focusing on.
    Mr. Cook. Well, part of it--and I will use the examples of 
countries like Panama, the Dominican Republic, that have 
changed their--you know, they used to recognize Taiwan, now 
they are recognizing Beijing. And the last day that we were 
there, we met with a large group of Caribbean countries, and 
they were very vocal about it. They were angry. And they made 
it very, very clear that is part of the reason that they have 
been taking to Venezuela. And I won't go into the situation--I 
think you know it--about the stipend or how they are going to 
help them with their buying oil down there.
    And each one of those countries, even the small ones, have 
one vote in the OAS, same as the United States. And it was kind 
of like they were holding school on us, or at least me. And 
they were, at the end, polite about it because we were 
listening to them, but it is something that I heard loud and 
clear.
    Anyone else have any comments on that? Or am I way off 
base?
    Ms. Fowler?
    Ms. Fowler. Well, I would add to what my colleague said, I 
mean, Secretary Mnuchin has been, I think, really leading an 
effort within the Lima Group with the finance ministers, 
hosting several meetings, working with finance ministers in 
that group to address the crisis in Venezuela.
    And I think that group has demonstrated a desire to really 
be unified. They have made very important commitments. And it 
is an opportunity for us to really deepen a lot of the 
coordination we do with those countries on TCO issues at that 
level, working really operationally to develop solutions and 
strategies.
    So I think that senior-level commitment from the Treasury 
Department is there.
    Mr. Cook. Well, thank you.
    By the way, I do want to mention, that was a weekend 
conference we went down. It was real short. I think it was 21 
countries. And we had nine members, which I was delighted that 
we had such a large showing to go down there. And it was like 
boom, boom, boom, boom, boom, boom, boom.
    And I actually want to give kudos to my colleagues. I 
thought we kind of agreed. We split up what our agenda was 
with--and the staff did a fantastic job. And I thought it was 
great if we could do it.
    I am going to turn it over, and then I will come back. We 
have a lot of people.
    The only comment I am going to make--and it shows my age--
is that money is a big factor down there because of drugs, 
gold, logging, you name it, and everything else. And it always 
goes back to the old bank robber who was in jail before any of 
you were born, and they used to ask--his name was Willie 
Sutton. And they asked Willie Sutton, why do you rob banks? And 
his classic retort: That is where the money is.
    And there is a lot of money, as some of the testimony 
reflects, that is being made in a lot of different ways. And 
unless we get our act together collectively, it is going to get 
worse and worse before it gets better, I am afraid.
    So I am going to stop and turn it over to our ranking 
member.
    Mr. Sires. Thank you, Chairman.
    And thank you again for being here.
    You know, I have been in this committee now for 12 years, 
and I have been saying all along that we just don't focus 
enough on the Western Hemisphere. And, unfortunately, things 
have to come to a crisis before we really focus.
    I understand that there are a lot of issues throughout the 
world, that we have been sort of sidetracked. But we cannot--we 
cannot--continue to overlook these countries that are right in 
our backyard.
    It has gotten to a crisis. You know, you have a situation 
in Venezuela where you have now people going all over South 
America, Central America from Venezuela because the situations 
are bad. Venezuela basically has become a satellite of the 
Cuban Government. There are 30,000
    Cubans profiting off Maduro. You have in Nicaragua the 
situation in Nicaragua now.
    So I don't think that it is helpful that we are going to be 
cutting the State Department's budget. You know, we have a 
situation now where we are cutting 31 percent of the United 
States assistance to Colombia. You know, we have been working 
with Colombia for a long time. Cutting 31 percent I don't think 
is helpful.
    The rhetoric coming out of the administration is not 
helpful at all. We have to work with these countries. And, 
unfortunately, calling people names and doing all these things 
is not going to endear these countries to work with us.
    I remember, when I first was on the committee, we were 
deporting people to some of these countries, and we weren't 
even telling those countries who we were deporting--in other 
words, their records. Now it has changed. I understand now that 
when we deport some of these gang members there is a whole file 
that goes with them. But I remember talking to the Ambassador 
here when I was on this committee 10 years ago and he said that 
wasn't done.
    Obviously, gangs are a real, real problem, not just in the 
Western Hemisphere but here also. I remember, when I was a 
mayor, having to deal with gangs, because they were recruiting 
in the high schools, and we had to do a strong effort. The MS-
13 and the other gangs were recruiting right in the high 
school. We had a real effort that we made successfully through 
the prosecutor's office.
    So all these things just keep coming up. And we need to 
focus our attention on what to do in those countries so we can 
help them deal with this issue. And, unfortunately, we just 
don't seem to focus.
    You know, I asked the Secretary of State this morning 
something that I feel very concerned with. You have the 
Ayatollah promoting this revolution throughout the world. In 
the Western Hemisphere, you never had cultural centers. So the 
Ayatollah seems to be funding these cultural centers now 
throughout all these countries. There are over 100 of them. We 
have to focus on that, because they are not there to promote 
culture. I am sorry. I don't agree with that.
    You have Nicaragua. Russia wants to build a base in 
Nicaragua, with all this buying tanks and so forth.
    I mean, when we overlook some of these areas that are in 
our backyard, somebody fills the gap. I know China is doling 
out money all over the place.
    I met with one of the presidents--I go to Colombia a lot 
because I work with some people there raising money for an 
orphanage. And I met with the president of one of the colleges. 
He told me that the second most studied language is Colombia 
today is Mandarin. Obviously, English is the first one, but, I 
mean, that is pretty high up there. You talk to the President 
of Peru, they tell you the same thing.
    So I don't know how to stress to the administration how 
important it is that we refocus our attention on what is going 
on in the southern part of the hemisphere.
    I think last year we went--it was SOUTHCOM. They showed us 
how many flights are coming out of Venezuela that are heading 
for the European Union. It was incredible. They showed us the 
flights. Most of the drugs coming out of Venezuela goes to the 
European Union. But, still, I mean, this is what props this 
country.
    And then you have all these people leaving Venezuela and 
creating nothing but problems throughout the other countries. I 
was talking to the Brazilian Assistant Ambassador. He told me 
that in Brazil, on the border with Venezuela, there was a small 
town with about maybe 8,000 people. It swelled up to about 
50,000. Colombia is dealing with it as best as they can, but, 
you know, the exodus out of Venezuela is creating nothing but 
problems. And we have to find a way to continue to put pressure 
and try to make some changes in Venezuela.
    So, I mean, I guess I don't have a question, but I just 
have to vent. I apologize.
    And I want to thank the chairman for holding this hearing. 
Thank you.
    Mr. Cook. Thank you. Don't apologize. I was venting too.
    We will probably have a second round of questions, but I 
wanted to get Mr. Brooks in from Alabama.
    Sir, you are recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    My questions are directed at Mr. Glenn, but if anyone else 
has anything to add, please feel free to do so.
    How much are funds from illicit activities and ties to 
transnational criminal groups contributing to the survival of 
the Maduro regime in Venezuela?
    Mr. Glenn. I actually don't have a number, but I would 
imagine that there is a significant portion of illicit activity 
that contributes to their survival.
    Mr. Brooks. What can the United States do to increase our 
efforts with regional partners to cut off this illicit 
financing?
    Mr. Glenn. I think maybe that might be best answered by my 
colleague from Treasury.
    Ms. Fowler. Congressman, what we are doing, as I mentioned 
earlier, is a very significant effort in the Lima Group, which 
includes all of the neighboring countries, really to make sure 
that we are pulling together all of the appropriate 
investigative authorities.
    Our goal, of course, is to make sure that members of the 
Maduro regime don't have access to the financial system to 
place their corrupt proceeds, to move them throughout the 
international financial system.
    So I think those partnerships are strong. We have a very 
robust, ongoing dialogue at very senior levels but also at the 
technical level to really make sure that those countries are 
taking the right steps. And we have seen many of them do that.
    Mr. Brooks. Anyone else want to add anything to those 
answers?
    I will go to my next one then.
    How have transnational criminal organizations used the 
Venezuelan humanitarian crisis and subsequent migration 
throughout the region to their advantage?
    Mr. Glenn. I think in any situation where you have a large 
number of people moving across borders and very porous borders, 
there is a large susceptibility to trafficking of many sorts, 
whether it be human, wildlife, and, of course, narcotics. So 
there is an increased risk because of that movement.
    Mr. Brooks. And the followup question: How can the United 
States help other countries in the region prevent the crisis 
from benefiting international criminal organizations?
    Mr. Glenn. I think our continued assistance to Colombia, 
especially Colombia, since it neighbors Venezuela, is crucial.
    The assistance that we specifically give to Colombia 
focuses mostly on coca cultivation and cocaine production and 
giving the ability, and greater ability, to the Colombian 
National Police and the Colombian military to eradicate coca 
and to interdict those drugs that are moving across borders and 
coming out of Colombia, whether it be to Europe or, more 
importantly, to the United States.
    Mr. Brooks. Mr. Glenn, I am going right back to you with 
some more.
    Have you seen any evidence of the Maduro regime in 
Venezuela supporting Colombia's criminal groups--FARC 
dissidents, ELN, BACRIM, or others?
    Mr. Glenn. I think it is well-known that drug trafficking 
organizations and radical groups like the ELN do take refuge in 
Venezuela. Whether or not that is this state-sponsored or -
encouraged, I wouldn't be able to comment on that.
    Mr. Brooks. Anyone else want to try any of those questions? 
If not, I can go to another one.
    All right.
    This week, the Trump administration announced new sanctions 
on Venezuela, which follow the sanction of over 70 Venezuelan-
related persons.
    What is the process by which the Treasury Department 
coordinates with other agencies, specifically the State 
Department, in designating individuals or entities under 
sanctions programs?
    Ms. Fowler?
    Ms. Fowler. Sure, Congressman. I mean, we have a very 
robust coordination process, really, with the interagency, led 
by the National Security Council. And we have a very active 
group that is considering, sort of, all of our potential 
authorities and tools and how best to bring them to bear on the 
Venezuela crisis.
    So the designations, the discussion about how best to use 
those kinds of authorities, including the types of authorities 
that you see in the most recent executive order, are all, I 
think, very robustly coordinated with the rest of the 
interagency.
    Mr. Brooks. Admiral Hendrickson?
    Admiral Hendrickson. We also have--you know, one of ways we 
do this is by, at Southern Command, we have an LNO from OFAC 
that is embedded into our intelligence side of the house. So we 
work quite robustly with the Treasury folks in terms of the 
intelligence we have and sharing that with them, particularly 
as those packages are developed.
    Mr. Brooks. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cook. LNO? The acronym, I----
    Ms. Fowler. It is a liaison officer.
    Mr. Cook. Oh. Okay.
    Mrs. Torres?
    Mrs. Torres. Thank you, Mr. Chairman.
    I want to start by associating myself with some of the 
comments that have already been stated by my colleagues.
    I am from California, and, as a California native, you 
would understand--also, as a former mayor--this is, like, the 
worst of the worst combinations that you can get here--a former 
mayor, former State legislator, I did a lot of work around our 
prison system in California. In my district, I have a State 
prison, men's prison, women's prison, and a juvenile that has 
now been closed.
    The Mexican mafia controls--or has great control of our 
prison system. They are very active in my home city of Pomona. 
They are the cause of a lot of the murders and the increase in 
the murder rate.
    I want to make sure that we are helping small communities 
like this to coordinate efforts to ensure that folks like the 
L.A. County Sheriff's Department, the San Bernardino Sheriff's 
Department, that are doing a lot of work around human 
trafficking have the resources that they need.
    And thank you for helping, all of you, for helping to boost 
that allocation of funding. But it is not enough. The Mexican 
mafia has moved on from simply trafficking weapons and drugs to 
now trafficking people.
    I wonder if any of you have a comment on that.
    Oh, come on, you are Homeland Security now. You are burning 
my time.
    Mr. Villanueva. Yeah. So, ma'am, we work very close with 
our State and local partners. Going back to my early days, as 
the chairman mentioned, I was a State trooper, and I worked 
with a former U.S. Customs Service task force. And we have that 
program all over the Nation to work with our State and local 
partners doing the Border Enforcement Security Task Forces.
    And those joint interagency teams are deployed all across 
the southwest border, southern border, as well as the Canada 
border. And it is through those mechanisms that we can support 
the small communities to deal with situations like that. We 
would be more than happy to follow up through our special agent 
in charge in the region to make sure that we are providing 
adequate support.
    Mrs. Torres. As we speak, there is a press conference on 
some FBI activity that occurred very close to where I am, where 
my home police department was involved also in this 
investigation. So I want to encourage that type of work and 
involvement from our Federal agencies to ensure that resources 
are given to our communities to deal with these issues.
    Ms. Fowler, the first round of the Global Magnitsky 
sanctions included several individuals from the Western 
Hemisphere. What was the impact of those sanctions? And, going 
forward, how will you use Global Magnitsky authority to combat 
transnational organized crime within our hemisphere?
    Ms. Fowler. Well, Global Magnitsky has been, of course, a 
top priority for the Treasury Department and for our Under 
Secretary, and we have a robust plan in place to continue to 
use that authority to the fullest extent possible.
    I can't comment on, you know, potential future actions, but 
I can assure you that we have a very active evaluation of 
information that we have access to to try to determine how best 
to use it, how to use it strategically, how to have the 
greatest impact, including in this hemisphere.
    Mrs. Torres. As you may know, I have an amendment--and, 
hopefully, we will be voting on it later today and pass it--
that would help with a report identifying folks, specifically 
targeting elected officials in the Northern Triangle.
    Mr. Glenn, the head of the national police in Honduras was 
accused of being involved in narcotrafficking. What can you say 
about that?
    Mr. Glenn. I read the same report, and in our----
    Mrs. Torres. This was after cleaning up the police force.
    Mr. Glenn. Right. So I read that report. We, through the 
Embassy and other groups within the government, have been 
unable to corroborate that story. So we continue to work with 
him.
    Mrs. Torres. So is he currently on duty, or----
    Mr. Glenn. I believe so.
    Mrs. Torres. Okay.
    I yield back, Mr. Chairman.
    Mr. Cook. Thank you very much.
    I just want to--I know I was kind of venting, myself, 
earlier. And what I am trying to get at--and I am not sure how 
to do it--is, we are looking for solutions here. And I will be 
very honest with you. There are so many different organizations 
involved, it seems that sometimes we might have one 
organization working at cross-purposes.
    Do you have--and I don't know--do you have command post 
exercises, to use a military term, where you have a scenario--
and we have a number of real diverse scenarios that you could 
use, with lessons learned from this, where you go through it, 
and you need this, this, this, and this, or you take away--
because, right now, to an outsider, I have this cynicism that 
says, because you have so many different countries and so many 
different agencies, how are we going to coordinate that?
    Do you do these exercises, working together, where you have 
a post-exercise report and it is recommended that Congress wake 
up and pass this or Congress pay attention to this? And I am 
showing my ignorance here, but I am turning to the experts to 
see if you could share some of your wisdom with me on that.
    The admiral is looking at me like, here is the dumb Marine 
question, right?
    Admiral Hendrickson. No, I would never say that, Chairman.
    So I think that one of the things that we have been doing 
for the last couple of years, his has been sponsoring----
    Mr. Cook. His?
    Admiral Hendrickson. Homeland Security Investigations.
    Mr. Cook. Okay.
    Admiral Hendrickson [continuing]. Has been sponsoring a 
surge operation in Latin America--and it was mentioned in the 
opening remarks--Operation Citadel. It is the best case that we 
have right now, where we, in partnership with his, have been 
supporting them with military capabilities as they surge, 
mostly intelligence but also some biometrics, which has yielded 
pretty substantial results.
    We go through this every year. It is anywhere from a 3- to 
6-month surge, depending on the funding available. And, thus 
far, we have seen very impressive results.
    We do a planning process leading up to that operation. We 
do a hot wash and an after-action upon completion. And then we 
start planning the next evolution. And we take those lessons 
learned and incorporate them in.
    You know, thus far, I think, trying to get after the meat 
of your question there, that is kind of one of those examples I 
can use that has really taken on a pretty substantial traction 
over the last several years.
    Mr. Cook. Is this classified, your after-action report, or 
could that be shared with Congress?
    In other words, if we are going to make decisions that are 
going to improve the efficiency of the problem we are talking 
about, some of these things that you might have learned might 
prove beneficial to us.
    Admiral Hendrickson. Yes, Chairman, I think we can 
certainly share that with you.
    And I think the other thing that we--actually, just 2 weeks 
ago, we were discussing, you know, how we transition what has 
up to this point been a sporadic surge operation, how we 
transition that into something that is a steady-state 
operation.
    Mr. Cook. Thank you.
    Anyone else?
    Yes, sir.
    Mr. Glenn. I would just mention the effort that has been 
born out of the executive order on transnational crime. One of 
the tasks out of that executive order and now given to the U.S. 
CTOC, the Council on Transnational Organized Crime, is to 
develop what we hope will be something similar to the National 
Counterterrorism Center, where strategic intelligence is 
matched with mission management across the interagency. That 
does not exist for transnational organized crime right now.
    So, in terms of what the future could look like, I think 
that is a very encouraging development. It is by no means 
finished. It is very much in its early stages of development. 
But it is a very positive development. And I would look forward 
to, at some point in the future when that is better 
established, to be able to share that with you.
    Mr. Cook. Mr. Sires?
    Mr. Sires. How significant is Hezbollah fundraising in 
Latin America from both licit and illicit activities? Can 
anybody talk a little bit about that?
    Ms. Fowler. It is an excellent question. It is something 
that we have been quite concerned about, obviously, for many 
years. What we are concerned about is Hezbollah taking 
advantage of some of the areas that have more lax regulatory 
supervision, sort of, constraints there.
    So it is something that we continue to assess. I don't 
think I can frame it for you in terms of how much--what 
proportion of overall funding. We know what Hezbollah's largest 
source of funding is. But we continue to look at this.
    And, notably, we are working really closely with the 
countries in the region that are most affected, very much in a 
very close manner, to try to assess what the risk is and really 
work with them to build some capacity to address it and 
potentially to take action together.
    So that is our approach currently to the issue.
    Mr. Sires. Mr. Glenn?
    Mr. Glenn. I was just down in the tri-border region a 
couple months ago, and we have been able to identify past funds 
to--now that Argentina is in a more cooperative posture, we 
have been able to give them some assistance in setting up a 
border task force around the tri-border area.
    I also visited check Paraguay. They are also more willing 
to focus some of their efforts to match with our assistance. 
And Brazil as well.
    So I think we are not there, in terms of a positive story, 
but we are getting there, as the three countries, with our 
assistance, reengage in the region.
    Mr. Sires. I was just going to bring that up, because I was 
there last year, and they have a toll booth between the three-
countries border. And I have to tell you, it is easier getting 
through there than getting through the Lincoln Tunnel where I 
am in New Jersey. I mean, there is nothing to stop them. There 
is no checkpoint. People go back and forth.
    We talked to the authorities. It is a--I mean, I try to 
make light of it, but it is very serious, the fact that we have 
these people just going from one to another without any kind of 
a check or anything.
    I yield.
    Mrs. Torres. Thank you once again for doing a second round. 
There is never enough time to ask all of our questions.
    I can't remember if it was Mr. Glenn or who mentioned the 
Vice President's involvement, personal involvement, last year 
at the conference in Miami. I think he has done that twice. 
Ambassador Nikki Haley also visited the Northern Triangle, 
Guatemala specifically, recently.
    Today, Secretary Pompeo was here, and I once again asked 
about our continued support for CICIG and to ensure that we 
continue to be focused on the region. We have spent $2 billion 
there. These are hardworking American taxpayers' dollars. We 
need to make sure that the trolls and the very corrupt elected 
officials that continue to work to undermine the work of CICIG, 
the work that we are doing in the region, by hiring lobbying 
groups here in the U.S. to lobby against the efforts of 
bringing about change and some transparency within the Northern 
Triangle--that, you know, we don't lose focus and that we don't 
fall to the--and give credit to these folks, specifically from 
the Treasury Department, that we continue to look toward people 
that ought to be identified publicly for their effort in 
continuing to push narcotics north.
    Last year, when we were in South America, I was alarmed at 
what we saw, the narcotics coming north from still Colombia 
through the Pacific Ocean. And I know that we have been 
proactive on the Atlantic side. We have good partners with 
Costa Rica there, with Haiti. But what is the status of 
Mexico's involvement in helping to intercept in the Pacific 
side?
    Admiral Hendrickson. Yes, ma'am. Mexico is actually quite 
involved. We hosted at Southern Command, earlier this year, a 
meeting that had the head of the Mexican Navy, the head of the 
Colombian Navy, our own Commandant of the Coast Guard, the 
Northern Command Commander, and the Southern Command Commander. 
And all of that discussion was about the Eastern Pacific and 
how we better utilize everyone's assets. We all recognize that 
none of us alone has what is sufficient.
    And the reality is--and we just finished up an exercise, 
actually an operation, that, frankly, was led by the Colombians 
and the Mexicans. And what we recognize is the better we can 
get at improving the efficiency and trust in our 
communications, the more opportunity we have to leverage each 
other's strengths. And we all recognize that that is something 
necessary.
    So I will tell you that that has been--you know, that was 
the first time we have had this kind of meeting with those 
partners, but everyone is actively engaged. And they 
understand, collectively, how big a problem that is.
    Mrs. Torres. Thank you.
    Mr. Glenn, in Central America, specifically in dealing with 
asset forfeiture issues, I know the Salvadoran Government just 
passed a law exempting themselves or exempting Members of 
Congress from having their assets forfeited. Can you speak to 
that? And what are some of our efforts to combat those laws 
that they are passing?
    In Guatemala, they are trying to exempt themselves from 
ever being tried of a crime involving corruption. Honduras' 
President is doing the same thing.
    Mr. Glenn. Sure. It is troublesome, but at the same time I 
think it is an indication of some of the success that we have 
had. The fact that these legislatures are attempting to pass 
or, in some cases, passing laws to exempt themselves from laws 
is an indication that the assistance that we have been 
providing--I think CICIG is a very good example of an effective 
entity.
    CICIG has been roundly criticized, and I think that that is 
actually--the criticism runs the full gamut from the socialist, 
progressive party criticizing it as an imperialist American 
tool, all the way to the other end of kleptocratic, entrenched 
families who claim it to be a U.N. conspiracy to establish a 
new world order.
    To me, as a neutral foreign assistance giver trying to 
fight corruption in Central America, I think we are hitting the 
spot when we are able to make everybody upset. And threatening 
that mode of government, of using corruption and coercion as a 
way of government, that is where we want to be. That is what we 
want to be doing. Because it ensures fairness for American 
companies who try to compete in these countries and ensures 
that governments are responsible and responsive to their 
people, which should ensure a more secure and more safe Central 
America so that people don't feel the necessity to flee to 
other countries, to the United States.
    Mrs. Torres. Thank you.
    And I am way beyond my time, but final words I want to say 
is that it also has empowered the young people to come forward 
and see themselves as the leaders of those countries, and that 
is exactly where we want to see them.
    Mr. Cook. Thank you.
    They are going to call votes, I believe, very shortly. 
Let's see--final remarks. Pursuant to committee rule 7, the 
members of the subcommittee will be permitted to submit written 
statements to be included in the official hearing record.
    Without objection, the hearing record will remain open for 
5 business days to allow statements, questions, extraneous 
materials for the record, subject to the length limitation in 
the rules.
    I just want to thank everybody.
    By the way, I have gone to NATO when they had exercises 
over there. I learned a lot. One of them was going from country 
to country, Stryker vehicles that came all the way down from 
Poland to Georgia. And they did a great job, everything, from a 
military standpoint, but the EU would not let them--you know, 
they held them up at the border, because the EU was under 
different rules than NATO. And some of those lessons learned, 
you know, we brought that up at the NATO Parliament, and you 
can kind of make corrections.
    So anytime you have suggestion for hearings, what we can 
perhaps ask questions about--I think a lot of the members 
were--obviously, they had a long day, with trying to catch up 
and everything. So I am very, very appreciative of your 
patience and for being with us today.
    And if you got something going on, if you could let our 
committee know. Just what you want to have is a bunch of 
Congressmen and Congresswomen looking over your shoulder. But, 
really, we are here to learn and maybe make a difference. So, 
please, if you have anything, don't be shy about that. And I 
think you will see some people that will be down there trying 
to learn to make it better.
    So thank you very much. There being no further business, 
the subcommittee is adjourned.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]

                           A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
